<html>
<title> - ID CARDS: REISSUING BORDER CROSSING CARDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
               ID CARDS: REISSUING BORDER CROSSING CARDS 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2008

                               __________

                           Serial No. 110-152

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-811 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director
































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2008....................................     1
Statement of:
    Edson, Tony, Acting Principal Deputy Assistant Secretary for 
      Consular Affairs, U.S. Department of State; Colleen M. 
      Manaher, Director, Western Hemisphere Travel Initiative, 
      Customs and Border Protection, U.S. Department of Homeland 
      Security; and Jess T. Ford, Director, International Affairs 
      and Trade, Government Accountability Office................     7
        Edson, Tony..............................................     7
        Ford, Jess T.............................................    27
        Manaher, Colleen M.......................................    19
    Fuller, Aaron, president, Computer Sciences Corp., Inc., 
      Enforcement Security and Intelligence Division; Rick 
      Patrick, senior vice president for Federal programs, L-1 
      Identity Solutions, Inc.; and William T. Alsbrooks, former 
      group vice president, Information Systems Credential 
      Technology Group, General Dynamics.........................    76
        Alsbrooks, William T.....................................    90
        Fuller, Aaron............................................    76
        Patrick, Rick............................................    82
Letters, statements, etc., submitted for the record by:
    Alsbrooks, William T., former group vice president, 
      Information Systems Credential Technology Group, General 
      Dynamics, prepared statement of............................    97
    Edson, Tony, Acting Principal Deputy Assistant Secretary for 
      Consular Affairs, U.S. Department of State, prepared 
      statement of...............................................     9
    Ford, Jess T., Director, International Affairs and Trade, 
      Government Accountability Office, prepared statement of....    29
    Fuller, Aaron, president, Computer Sciences Corp., Inc., 
      Enforcement Security and Intelligence Division:
        Followup questions and responses.........................    94
        Prepared statement of....................................    79
    Manaher, Colleen M., Director, Western Hemisphere Travel 
      Initiative, Customs and Border Protection, U.S. Department 
      of Homeland Security, prepared statement of................    21
    Patrick, Rick, senior vice president for Federal programs, L-
      1 Identity Solutions, Inc., prepared statement of..........    84
    Towns, Hon. Elophus, a Representative in Congress from the 
      State of New York:
        Followup questions and responses.........................58, 69
        Prepared statement of....................................     3


               ID CARDS: REISSUING BORDER CROSSING CARDS

                              ----------                              


                        WEDNESDAY, JUNE 25, 2008

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2154, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the subcommittee) presiding.
    Present: Representatives Towns, Bilbray, Duncan, and 
Platts.
    Staff present: Michael McCarthy, staff director; William 
Jusino, professional staff member; Kwane Drabo, clerk; John 
Brosnan, minority senior procurement counsel; Charles Phillips, 
minority counsel; and Todd Greenwood, minority professional 
staff member.
    Mr. Towns. The subcommittee will come to order. Let me 
begin by first apologizing for our lateness, but we have to 
vote around here. And, of course, we had some votes going on, 
and that is what delayed us here.
    Welcome to today's oversight hearing on the border crossing 
cards. Today we are examining an issue critical to the safety 
of our borders and to national security. Each year, the State 
Department issues millions of border crossing cards to Mexican 
nationals living near the U.S. border. These cards are visa 
documents that allow short-term travel across the border for 
business and tourism.
    Now, visa documents like these allow valuable cultural and 
economic exchange. We want these documents to be processed and 
used as the efficiently as possible so that this exchange 
happens smoothly. As millions of border crossing cards expire 
between now and 2012, replacing them will put tremendous 
pressure on our consular office in Mexico. The State Department 
will have a lot of work to do to minimize the delays in coming 
years.
    Two years ago, the full committee held a hearing on delays 
in visa processing. In some countries, applicants had to wait 
more than 5 months to get an interview. We have heard from many 
people across this land in terms of these delays and how to 
deal with the damage to cultural and economic exchange.
    Last summer, the State Department had a backlog of several 
months in processing U.S. passport applications, which also 
hurt tourism and commerce. So, it is with this recent history 
in mind that we ask: what is being done to make sure this type 
of backlog does not occur again in Mexico? However, we still 
have to make certain, make sure we strike the right balance 
between security and openness and ensure that these documents 
are not abused by anyone who wants to harm you.
    This hearing will continue the subcommittee's review of 
identification card programs in the Federal Government. I will 
let the State Department's witness go into detail about their 
plan. But I would like to mention one part of it now.
    State has contracted with Computer Sciences Corporation for 
a pilot program to speed up the application process in Mexico. 
It will do this by moving the data collection step, including 
the application, and fingerprint collection, to privately run 
offices, instead of U.S. consulates. I think we should take a 
hard look at whether this type of outsourcing will maintain 
security and government control of visa issuance.
    I look forward to hearing these concerns addressed today.
    We will also hear today about the new security technology 
that the State Department and the Department of Homeland 
Security are using in the border crossing card. They have 
assured us that the new card is much more secure than the 
version it is replacing, but some critics have said that it is 
not. I'm glad that we will have an opportunity today to hear 
more about the new card from security experts.
    I would like to thank the ranking member, Congressman 
Bilbray from California, for his work on this issue. He has 
been working on it for quite some time. I know it's very 
important to his community in San Diego. We also agree that the 
safety of our borders and the openness of our travel policies 
are important issues. That is why I'm glad we worked together 
on this hearing today, so we can make sure that we are doing 
all we can to protect ourselves while also allowing full 
opportunities for cultural and economic exchange.
    I now yield to my colleague from California for his opening 
statement.
    [The prepared statement of Hon. Elophus Towns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, as you referred to, obviously my district and 
the region of San Diego is very interested in this technology. 
San Diego-Tijuana happens to be the largest port of entry in 
the world. Just as we get news reports here about the commute 
up 95 or down the Baltimore-Washington Parkway, in San Diego 
you get the report of how long the wait is at the border every 
morning--people coming in and people going south later in the 
afternoon. That is just part of our life that border crossing 
is not just a luxury; it's an essential part of our community.
    But, Mr. Chairman, let me just say, I am proud to serve 
with you as the ranking member, and I want to say this to the 
people testifying and listening here. This town right now is 
full of a lot of Democrats looking to get Republicans and 
Republicans looking to get Democrats. And, the priority of 
partisanship takes precedence over so many other things. And, I 
am so proud to serve with the chairman on a subcommittee that 
truly has abandoned that concept.
    You do not see a Democrat or a Republican sitting up here 
today. You see Americans looking to defend our community and 
our Nation as Americans. And, I am so proud to be able to be on 
a committee, that is so rare in today's world in Washington, 
and that is the ability to serve the Nation first and keep 
partisanship out of the process as much as possible.
    Mr. Chairman, as the 9/11 Commission final report said, for 
terrorists, travel documents are as important as a weapon. So 
as we get to testimony today, I want you to know that this 
ranking member is looking at the fact that our responsibility 
as a subcommittee is to make sure that just as important as it 
is to make sure that terrorists don't get weapons of mass 
destruction, that terrorists don't figure out how to kill our 
soldiers in Humvees or in vehicles, just as important as making 
sure terrorists can't get on airplanes to kill another 3,000 
Americans, it is just as important that we make sure that we 
deny terrorists documents, that they can use as weapons against 
the American people.
    And it's not as sexy, and it's not going to be on the front 
page, and it's not going to be on the evening news, because you 
don't have the visuals that you have with what is going on 
overseas. But, this is just as much a part of our national 
defense and our No. 1 responsibility as a Federal Government as 
all of those things.
    I hope that we can now take the same attitude and same 
urgency and the same commitment to quality and safety with 
armoring our borders from terrorist attacks and illegal 
crossings as we would to armoring our Humvees.
    And so, with that, I just want to let the witnesses know 
ahead of time, you're not facing a separated panel in front of 
you, of a Democrat and a Republican. You're facing a united 
committee of Americans, who want to make sure we get to the 
right answer, as quickly as possible because nothing short of 
the defense of our neighborhoods are at stake here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Towns. Thank you very much and let me thank the 
gentleman for his kind words. Thank you for that as well.
    Let us now turn to the panel. It is a longstanding policy 
of this committee that we swear in all of our witnesses, so if 
you would be kind enough to stand at this time and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Towns. You may be seated. Let the record reflect that 
the witnesses answered in the affirmative.
    Let me begin with you, Mr. Tony Edson, the Acting Principal 
Deputy Assistant Secretary of Consular Affairs with the State 
Department.
    He has a great deal of experience with visa issuance.
    We want to welcome you here, and we will begin with you and 
then come down the line. Thank you.

  STATEMENTS OF TONY EDSON, ACTING PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY FOR CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE; 
    COLLEEN M. MANAHER, DIRECTOR, WESTERN HEMISPHERE TRAVEL 
 INITIATIVE, CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
 HOMELAND SECURITY; AND JESS T. FORD, DIRECTOR, INTERNATIONAL 
      AFFAIRS AND TRADE, GOVERNMENT ACCOUNTABILITY OFFICE

                    STATEMENT OF TONY EDSON

    Mr. Edson. Chairman Towns, Ranking Member Bilbray and 
distinguished Members, thank you for the opportunity to discuss 
what the Department of State is doing to meet the increased 
workload from the border crossing renewal program in Mission 
Mexico. The challenging task facing us is clear. Millions of 
border crossing cards first issued in April 1998 begin expiring 
this year.
    Between 2008 and 2012, more than 5 million border crossing 
cards will expire. By 2012, the workload in Mexico for visas 
and border crossing cards resulting from normal demand and the 
BCC renewal program could exceed 3 million cases. To meet this 
temporary and cyclical surge demand, we have developed a three-
point strategy: to implement new staffing programs, increase 
infrastructure to accommodate larger numbers of visa 
interviews, and to leverage technology to gain efficiencies and 
reinforce integrity in the adjudication process.
    To supplement our consular work force in Mexico during the 
surge period, we have developed a framework for a flexible and 
temporary work force of consular adjudicators, selected from a 
highly qualified pools of applicants. This flexible work force 
will include assigning retired Foreign Service officers for 
discrete periods of time, in addition to participants of two 
new programs, professional adjudication specialists and roving 
adjudication specialists. Both of these new programs will hire 
qualified adjudicators who have successfully completed all 
consular officer training and have the language competency and 
other prerequisites.
    We have also developed a facilities strategy that will 
increase space available for BCC adjudication as well as 
demands for passport and nationality services affected by the 
Western Hemisphere Travel Initiative rule. Consulate General 
Monterrey will serve as a consular hub by accommodating 
overflow demand from our consulates in Matamoros and Nuevo 
Laredo. To accommodate this increase in Monterrey, the 
Department is currently expanding interview window capacity 
from 10 to 26 windows by the end of this year to perform an 
estimated 700,000 interviews per year.
    We will also open a new, large conflict compound in Ciudad 
Juarez in September 2008 and a new consulate compound in 
Tijuana, to be completed in 2010 in ample time for the BCC 
surge there, which according to our projection should peak in 
2011.
    Innovations in technology enhance our staffing and 
infrastructure approaches as well as enhance efficiency and 
security. As you mentioned, we're piloting a new concept of 
visa processing, offsite data collection, ODC, in Monterrey and 
Nuevo Laredo whereby a contractor collects the biometric 
information from the applicants. The consular officer then 
confirms that biometric information during the interview 
process.
    By moving nongovernmental visa processing functions to an 
offsite contractor, consular personnel can better focus on 
critical governmental activities such as the security and 
integrity of the visa process.
    In its July 2007 report, ``Security of New Passports and 
Visas Enhanced, But More Needs to Be Done to Prevent Their 
Fraudulent Use,'' the GAO recommended that the Department 
reassess security features and redesign travel documents on a 
regular basis. The advent of the BCC renewal program has 
offered the Department just such an opportunity to redesign the 
next generation of BCCs.
    Later this fall, we will begin replacing the current border 
crossing card with this new generation and much-improved card 
design. The Department believes that the physical security of 
the card itself is paramount. In designing both the passport 
and border crossing cards, we reviewed a wide range of 
available security features and consulted with the interagency 
community and especially with the Department of Homeland 
Security, Immigration and Customs Enforcement's Forensic 
Document Lab to make the card as secure and durable as 
possible. As a result of this collaboration, the card's design 
includes multiple layers of covert, overt and forensic security 
features which provide safeguards against tampering and 
counterfeiting and which also provide easy visual and tactile 
verification to our colleagues in the Customs and Border Patrol 
at the ports of entry.
    Let me acknowledge the cooperative relationship with the 
GAO team and their current review of our plans to prepare for 
the workload demand in Mexico, generated by the BCC renewal 
program. We have learned a lot of from their study and we 
appreciate it.
    Thank you again, and I welcome your comments.
    Mr. Towns. Thank you very much for your testimony.
    [The prepared statement of Mr. Edson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Ms. Manaher.

                STATEMENT OF COLLEEN M. MANAHER

    Ms. Manaher. Chairman Towns, Ranking Member Bilbray and 
other distinguished members of the committee, I am pleased to 
appear before you today to discuss the security of the border 
crossing card, how it compares with previous versions of the 
card and how it's integrated with other Federal identification 
card programs.
    The Department of Homeland Security, in partnership with 
the Department of State, is working to secure our homeland by 
strengthening our ability to accurately identify all persons, 
U.S. citizens and visitors alike, before they enter the United 
States. We're accomplishing this through the implementation of 
secure document requirements at all ports of entry.
    The Department of State has worked very closely with the 
Department of Homeland Security to develop a secure, highly 
tamper-resistant passport card that includes vicinity RFID 
technology and facilitates real-time verification of the 
document at land border ports.
    The newly redesigned, Department of State-issued border 
crossing card is modeled on the passport card and therefore 
will have vicinity RFID capability that will contain layers of 
overt, covert and forensic security features, making it as 
counterfeit and tamper-resistant as the passport card.
    The vicinity RFID capability will provide for the same 
electronic verification of the document as the passport card, 
which means verifying the document with the issuing source, 
which is a significant security enhancement over physical 
features alone. Our decision to adopt vicinity RFID technology 
for the land border was based on the need to process legitimate 
travelers as speedily as possible without impacting security. 
Vicinity RFID technology affords the most benefits for the 
facilitated movements of travelers, including the ability to 
read a travel document in advance at the land border, to verify 
identity, to pre-position information and, most importantly, to 
perform watch list queries.
    Our research and testing indicates this RFID technology is 
able to accomplish each of these critical business 
requirements. Both DHS and CBP have instituted ``best 
practices'' for the collection, the protection and the use of 
personal information for the Western Hemisphere Travel 
Initiative. No personal identifying information is stored on 
the RFID tag, and all data is stored at remote locations on 
secure storage devices that only can be accessed via DHS's 
secure encrypted networks. Implementation of a card-specific 
tag identifier number will ensure that cloned or duplicated 
RFID tags can be detected electronically and in real time at 
the border.
    On January 22, 2008, the Department of Homeland Security 
published a privacy impact assessment for the use of vicinity 
RFID technology for border crossings. In preparation for the 
full implementation of the Western Hemisphere Travel 
Initiative, we awarded a contract on January 10, 2008, to begin 
the process of deploying vicinity RFID facilitative technology 
and infrastructure to 354 vehicle primary lanes and 35 high 
volume land ports of entry, which process 95 percent of all 
land border travelers.
    We have started the actual construction in our land border 
ports, and the installation of the integrated solution will 
commence shortly. However, until that time, we currently have 
optical character reader technology in place at air, land and 
sea ports of entry. This technology reads any travel document 
with a machine-readable zone, including passports, border 
crossing cards, trusted traveler cards, permanent resident 
cards and the new passport card.
    All CBP officers are currently trained in the use of this 
technology and this technology is being used right now. Our 
trusted traveler programs, NEXUS, SENTRI and FAST, have a total 
of 462,000 members, and we expect to more than double that 
number by the end of fiscal year 2009.
    This year, trusted traveler cards are being upgraded to 
make them WHTI-compliant and will included additional security 
features to make them more tamper-resistant.
    These documents will be upgraded with vicinity RFID 
technology that will allow them to be verified electronically 
against secure DHS data bases.
    In closing, these initiatives discussed today are only a 
portion of CBP's efforts to secure our homeland, and we will 
continue to provide our men and women on the front lines with 
the necessary tools to help them gain effective control of our 
Nation's borders.
    I would like to thank Chairman Towns and Ranking Member 
Bilbray for the opportunity to present this testimony today and 
for your continued support of CBP. We will be happy to respond 
to any questions.
    Mr. Towns. Thank you very much.
    [The prepared statement of Ms. Manaher follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Mr. Ford.

                   STATEMENT OF JESS T. FORD

    Mr. Ford. Thank you, Mr. Chairman, members of the 
subcommittee. I am pleased to be here today to discuss GAO's 
ongoing work being conducted for this subcommittee on the 
Department of State's efforts to prepare for the upcoming surge 
in its consular workload in Mexico. We plan to issue our final 
report on this later, at the end of July.
    The U.S. Mission in Mexico is the State Department's 
largest consular operation in the world. In fiscal year 2007, 
it processed about 1.5 million nonimmigrant visas, which is 
about 20 percent of the global total. Moreover, its post in 
Juarez is the largest issuer of U.S. immigrant visas in the 
world.
    The U.S. Mission in Mexico also provides services, 
including passport processing and emergency assistance, to 
around 20,000 American citizens living in Mexico. This already-
significant consular workload is expected to increase 
dramatically in the coming years as millions of nonimmigrant 
visa border crossing cards issued in Mexico between fiscal 
years 1998 and 2002 will expire and need to be renewed.
    In addition, the implementation of the new travel 
requirements under the Western Hemisphere Travel Initiative 
will, for the first time, require U.S. citizens to carry 
passports or other approved documentations when traveling 
between the United States and Mexico.
    The State Department must expand its consular capacity in 
Mexico to keep pace with this expected surge in demand. If 
State does not take the steps necessary to adequately meet this 
growth in workload, travel between the two countries could be 
significantly affected, resulting in inconveniences and 
hardships for individual travelers and negative consequences 
for the economies in both countries.
    Today, I will discuss two main observations in our upcoming 
report. First, I'm going to discuss State Department's 
estimates for its workload in the consulates in Mexico through 
the year 2012; and second, I'm going to discuss the actions 
that the Department of State is taking to address this increase 
in demand.
    State anticipates that the Mission in Mexico will, through 
its passport--excuse me, its NIV and passport workload will 
double from fiscal year 2007 to 2011, which will be the peak 
year of demand.
    The Mission in Mexico will experience a substantial growth 
in NIV workload primarily due to the need to renew all of the 
border crossing cards that are expected to expire. According to 
State Department forecasts, the Mission in Mexico--the demand 
will more than double by the year 2011 to approximately 3 
million applications. NIV demand will then begin to decline in 
fiscal year 2012.
    The State Department acknowledges that it is uncertain 
about how many actual cardholders will renew their cards and 
what the number of first-time NIV applicants will be. However, 
State officials believe that the forecasts are more likely to 
overestimate demand. For purposes of planning, the Department 
is using a worst-case scenario in determining how many people 
it will need to hire and how many windows it will have to 
build.
    In addition to the increase in NIV workload, the Mission in 
Mexico will also face increases in passport workload due to the 
implementation of the WHTI. The magnitude of the increase in 
passport workload is more difficult to forecast because, unlike 
NIVs, there is no historical precedent. Also there is a great 
deal of uncertainty as to how many U.S. citizens actually live 
in Mexico or the number of citizens that are likely to apply 
for a passport.
    Despite these challenges in developing forecasts, the State 
Department has created some initial estimates of workload 
increases caused by these increases in demand. In anticipation 
of this demand, the State Department is taking several steps to 
ensure that the consulates in Mexico keep pace with the 
projected workload. The State Department is planning to add 
several new interviewing windows at many of its posts, and it 
also plans to hire as many as 100 temporary adjudicating 
officers to handle the workload that is expected from the 
demand.
    Consular officials we met with at many of the consulates in 
Mexico generally agree that their plan, if fully implemented, 
should address any increases in workload demand and not result 
in backlogs. However, the State Department is continuing to 
revise its estimates on future workload, and we plan in our 
final report to have the most current information available on 
that demand.
    The State Department's plan to hire temporary adjudicators 
will almost double the number of officers currently in Mexico 
during the surge. We identified some posts that may have some 
difficulties in meeting demand because of the space that is 
available from the windows. The State Department has a plan to 
address this problem by having applicants move to another post, 
where they have expanded the window capacity, and hopefully, 
there won't be any backlogs in those posts.
    Finally, the State Department has begun a pilot program 
that outsources a portion of the NIV application process that 
does not require the direct involvement of consular officers, 
including biometric data collection at offsite facilities. The 
pilot began in the spring of this year in Nuevo Laredo and in 
Monterrey. Because it is new, we have not been able to assess 
the potential impact of this pilot on productivity, fraud and 
security.
    We note that at this point the State Department has not 
developed milestones for completion of the pilot nor metrics to 
measure the effectiveness of the pilot.
    However, in conclusion, we believe the State Department has 
done a good job of estimating what the potential demand is 
likely to be, and that they have a plan in place that should, 
if fully implemented, address the potential for backlogs in the 
future.
    This concludes my oral statement. I would be happy to 
answer any questions.
    Mr. Towns. Thank you very much, Mr. Ford.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Let me thank all of you for your testimony, and 
let me move very quickly to you, Mr. Edson. And I would like to 
start by saying the State Department plans for handling the 
upcoming demand for border crossing cards seems to be a good 
one, but we are still concerned about the contract with CSC.
    Contracting experts say it's generally poor practice to use 
a letter contract, such as the one between State and CSC, 
because it does not specify price or costs. This is the type of 
contract we generally associate with concession sales at our 
national parks, not with anything like the important business 
of collecting visa application information, and this is a very 
important and very serious situation.
    Why didn't you take the time to draft a formal contract 
versus a letter? This seems to be very important, and I can't 
figure out why you would just do a letter and not a contract.
    Mr. Edson. Thank you for that question.
    We actually had a preexisting arrangement with CSC in 
Mexico to provide user-paid information services and to assist 
in managing our appointment system, so in a sense it was a 
concession during the time it was being run as a letter 
contract. We have amended that contract to allow for CSC to 
help with this pilot program.
    Because we are interested in a full and open competition 
with a regular RFP. We were concerned that we needed to know 
more about this new business model, have enough detail 
concerning this new business model, so we could do a regular 
detailed statement of work in conjunction with a normal 
contracting model. That statement of work is being worked on as 
we gain more experience with the pilot and as soon as we're 
satisfied that the pilot is completed and has been successful, 
we plan--hopefully, by the end of the calendar year--to release 
a regular RFP onto the street.
    Mr. Towns. We know that the original contract for the call 
center in Mexico was competed, but then it was extended to 
include the work of the offsite data center pilot program.
    Why wasn't a contract for this work competed?
    Mr. Edson. At the time we began working on this new 
technology, this new business model for us, we were concerned 
that competing it would move us too far out into the BCC 
renewal period. By the time we competed the pilot and then did 
a full--a regular competition for the worldwide use of this 
model, if and as appropriate, we thought we would be too far 
into the BCC renewal period and that we ran a risk then of not 
meeting the demand.
    So we thought we were better off with an amendment to run a 
pilot to get the information we needed for a regular 
competition.
    Mr. Towns. I understand that this is a pilot program, and 
you may extend this model to other countries if it's 
successful. Will those contracts be competed? Or will they be 
letter contracts as well?
    Mr. Edson. We are discussing with our acquisitions folks at 
the Department of State the best contracting model to use; that 
is something that still has to be determined. We would like to 
have something as rigorous and fully and transparently competed 
as possible.
    Mr. Towns. Well, it just seems to me that for something 
that is as very serious as this--I mean, that a official kind 
of contract would be drawn up. I don't understand why you would 
just do it by letter.
    Mr. Edson. Right at this point, we're only doing that 
because we extended the existing arrangement for pilot 
purposes.
    Mr. Towns. The State Department and Customs and Border 
Protection--at this point, I'm going to yield to my colleague.
    Go ahead. I yield to the gentleman from San Diego.
    Mr. Bilbray. First of all, let me premise this whole 
discussion based on--are all three of you aware of what's going 
on along the border right now? Do you realize that 1,300 people 
have been murdered along our border on the other side? Do you 
comprehend why so many people are being killed and what is 
happening there, where you have law enforcement officers 
crossing into the United States asking for asylum?
    I only bring this up to just show you the degree of threat 
not only of bad guys getting across the border, but the degree 
of corruption and infiltration into our own operations.
    Does anybody of the three panelists know what ``silver or 
lead'' means, the term ``silver or lead?''
    Mr. Ford.
    Mr. Ford. Yeah, I know what it means. We just issued a 
report on the problem in Mexico, by the way, last said October 
that basically the problem with law enforcement there is; and 
the ``silver and lead'' analogy is basically: if you don't take 
the payments from the drug traffickers, they're going to kill 
you. So----
    Mr. Bilbray. And that is the point. And I will tell you 
something. I only--I just wanted to start off with that.
    Just understand, this is a pressure cooker of corruption, a 
threat, and I just think those of us here in Washington have no 
idea how bad it is. And I will say this publicly. It's so bad 
that I'm trying to get my daughter to move away from 2 miles 
from the border on our U.S. side.
    So that is the precedent. With 1,300 people--murdered it 
basically means, You take my silver or I'm going to shoot you 
or your family.
    That can be a very persuasive argument, and my concern is, 
as we move forward, we are not naively operating in an 
environment that is Peyton-Place-By-the-Sea. This is a very 
ugly world that we're confronting along the frontera.
    With that, I think I can't overstate the threat of our 
systems being compromised, and not just our documents, but our 
entire operations. It's hard to think that corruption somehow 
or that influence of ``silver or lead'' is somehow going to be 
protected because of the Mexican border, especially then, 
because so much of our operations even have to be done in the 
foreign country where this battle is going on.
    I guess, DHS, my question to you is, if you discover that 
our security features have been compromised or simulated with 
relative ease, are you prepared to make a significant change of 
security measures to counter that threat?
    Ms. Manaher. In terms of the document, sir?
    Mr. Bilbray. Document and operations.
    Ms. Manaher. Yes, sir. And I think it's important to note 
that as we move with this radio frequency technology that we 
will actually be able to go back to the issuing source. So, 
right now, our officers, our land border is vehicle-based; it's 
not person-based. So once we deploy to WHTI, we will move from 
a vehicle-based system to a person-based, meaning we're 
actually going to go back to the Department of State and pull 
up that information for our officer. All queries will be done 
in advance of that vehicle even approaching that officer.
    Mr. Bilbray. You're talking about operations. What I'm 
saying is, if the documents been compromised, if the procedure 
for receiving the information and executing it and getting it 
to whomever is compromised, do you have a contingency plan to 
modify the operation in time to protect the American people?
    In other words, if you are compromised, if the technology 
you have chosen gets compromised, is there a backup plan B?
    Ms. Manaher. Yes. If they could somehow--with the RFID, all 
the card readers also have the machine-readable zone that can 
also be used.
    Mr. Bilbray. What percentage of machine-readable is going 
to be available?
    Ms. Manaher. Right now, almost all of the travel documents 
that are issued.
    Mr. Bilbray. I'm talking about ports of entry.
    Ms. Manaher. We have deployed machine-readable technology 
to all lanes at all land border ports of entry.
    Mr. Bilbray. Every one? Tecate, all the way down?
    Ms. Manaher. Yes, sir. They all have them.
    Mr. Bilbray. For this technology that is available right 
now?
    Ms. Manaher. For the current technology on the machine-
readable zone.
    Mr. Bilbray. I'm talking about the new technology.
    Ms. Manaher. We are starting that now, sir, and we will 
have that fully deployed with our schedule, of course, with 
construction limitations by April 2009, sir.
    Mr. Bilbray. So your face-recognition technology will be 
available by 2009?
    Ms. Manaher. Our RFID technology reader system will be 
available by April 2009 at the top 39 land border ports of 
entry, yes.
    Mr. Bilbray. And your technology will have fingerprint and 
face-recognition technology?
    Ms. Manaher. It will have the facial. It will go back and 
pull up the original face of the passport card to the officer--
will be our facial biometric picture.
    Mr. Bilbray. Just the picture?
    Ms. Manaher. That's right, sir.
    If the officer feels that there is any type of imposter or 
any situation going on, he could refer that off of vehicle 
primary, refer that to secondary, at which time that officer 
can do a full biometric query back to----
    Mr. Bilbray. But that card itself does not have the finger 
biometric on it?
    Ms. Manaher. It does not.
    Mr. Bilbray. So the facial biometric is the only biometric 
you're using in this technology?
    Ms. Manaher. Correct.
    Mr. Bilbray. I remember in our REAL ID legislation--that, 
if you want to compare this to our REAL ID legislation where--
Mr. Chairman, I remember the debate that we were talking about, 
two out of three, so that there were two biometric systems to 
confirm within the cards. Has that gotten lost somewhere down 
in translation?
    I remember specifically, there were three debates. I happen 
to have worked on this during my sabbatical the voters gave me 
for 5 years.
    Mr. Towns. Welcome back.
    Mr. Bilbray. Thank you. It's always great to have a 
environmentally sensitive district that is willing to recycle 
Congressmen.
    But I remember it was either your finger, the face 
recognition, or the retina scan. Now, that has gotten lost 
somewhere down the line. Now we're just going to the face 
recognition----
    Ms. Manaher. I was speaking of the passport card, sir. The 
border crossing card, as you know, takes a full set of 
fingerprints, and those are available to us in the secondary 
area for the border crossing card, for such a purpose.
    Mr. Bilbray. So, in other words, what--say you want to talk 
about, the confirmation of fingerprint is based on data already 
on file, and the card then opens up that data file, so then you 
can check?
    Mr. Edson. Correct. We collect 10 prints in conjunction 
with the application for a border crossing card. The first 
cards, when they were originally applied for, two prints were 
collected beginning of 1998, end of 1998; and then, of course, 
the photos are there as well.
    Mr. Bilbray. So the code goes in. So, de facto, you have 
fulfilled the REAL ID standard.
    I want to make sure that--one of the things we have done in 
our hearings is found out that the Federal Government has not 
been upgrading all our IDs to the minimum standard that we set 
for the States, which is kind of hypocritical, and I, for one, 
have talked to the President about that.
    But now we're talking about how this card is compatible 
with that. That is fine, but there are still major concerns 
with this. And my biggest concern is that we have two or three, 
like we require the States to have and what you're saying is, 
because it's on file and this card accesses this file, that 
fulfills the fingerprint biometric requirement.
    Mr. Edson. Correct. And the photo is on the card itself.
    Mr. Bilbray. Mr. Ford.
    Mr. Ford. You know, we didn't really study this. We issued 
a report last year on this issue. I think the only comment I 
would make is that the potential vulnerability for the 
biometric fingerprints would be that primary currently can't 
access, so--but the tradeoff there is, if they started to do 
that, then you would have traffic issues.
    Mr. Bilbray. Talk about the ones they can't access.
    Mr. Ford. Well, on primary inspection, it's my 
understanding, unless it has changed from a year ago, that the 
biometric fingerprinting is not--the primary inspector is not 
going to have access to that.
    Mr. Bilbray. Primary. That segues into secondary. He has to 
make that call. I understand that--I can understand 
procedurally as somebody who has crossed the border many 
times--not just to go surfing down south, either.
    But let's--what happens with the identification of the 
biometrics, in other words, the fingerprints themselves? When 
you get the biometrics, what files or what records are 
available? You have--FBI files are available, right?
    Mr. Edson. Correct.
    Mr. Bilbray. Immigration files available?
    Mr. Edson. Correct.
    Mr. Bilbray. So you do not have any fire walls like local 
law enforcement has. You have access to all State and Federal 
biometric records there; California has had biometric 
fingerprints since 1978.
    Mr. Edson. We are fully integrated with DHS and with IAFIS, 
the FBI's fingerprint management system for criminal records. 
The fingerprints we collect are shared immediately with the 
IDENT DHS system; they're all actually stored with IDENT, with 
US-VISIT. A query then takes place against the immigration 
records, the DHS records, our own previous visa records, which 
are stored there for fingerprint purposes; and then passed 
through on the FBI's IAFIS prints data base. So we're getting 
all federally maintained immigration, visa and criminal----
    Mr. Bilbray. What is the possibility of local law 
enforcement having access to that data base? Do we have fire 
walls now that----
    Mr. Edson. Unless you're prepared to answer, I would have 
to take the question.
    It's an issue that we have been working with law 
enforcement, local law enforcement, on through DHS and their 
colleagues at CJIC, the Criminal Justice Information Center, in 
West Virginia, the FBI operation out there for 4 years or so.
    There are some technical issues. There is a lot of sharing 
going on. But I just, we would have to take the question to 
give you an----
    Mr. Bilbray. I think you understand why the San Diego 
County sheriff or the police department at El Paso would feel 
it's essential for them to be able to check, if they have 
fingerprints that they need to cross-check, that this be part 
of the data file that they're able to access.
    Ms. Manaher. I actually believe that US-VISIT has 
entertained a pilot program, I believe with Los Angeles County. 
But--we will take that as for a cue for US-VISIT, but I believe 
they are moving in that direction.
    Mr. Bilbray. Mr. Chairman.
    Mr. Towns. Thank you very much. Thank you.
    Let me come back to you again, Mr. Edson. The Competition 
in Contracting Act and the Federal Acquisition Regulation 
stipulate rules for awarding contracts. It appears that they 
were not followed, because they only apply when the contractor 
receives appropriated funds. In this case, CSC is providing its 
services on a user-pays system in which they receive payment 
for service directly from the application fees.
    Does this mean that CSC has not been paid government funds 
of any kind for this contract?
    Mr. Edson. CSC was not paid government funds of any kind 
for the preexisting arrangement, the user-pays information 
services in Mexico. I am fairly certain that is still the case.
    But I would have to take the question to confirm in detail 
with one of our acquisition folks.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Why wouldn't we have the applicants pay the 
Treasury for the services and then pay CSC from the Treasury?
    Mr. Edson. That is certainly--that is a central issue as we 
look at the release of a request for proposal for a broader 
application of this technology and this work process. It's 
exactly that question: How do we fund it? And I think that is 
where we're going to end up with the money going to the 
Treasury and then the Department contracting directly in a more 
traditional model.
    Mr. Towns. Let me just say that, you know, it's not legally 
required in this case probably, but wouldn't following the 
procedure in the FAR and the Competition in Contracting Act be 
the best business practice to prevent criticism?
    Mr. Edson. Again, I prefer to take the question. This was 
about 5 or 6 years ago, and I wasn't involved in this original 
award, the award with CSC for the information services in 
Mexico.
    Mr. Towns. I must admit that I have some concerns.
    Mr. Ford, let me go to you. It appears that State is taking 
steps to make sure that these visas are processed as quickly as 
possible, which is a top priority. The committee looks forward 
to reading a more detailed review of how well it works once 
more, as time has gone by.
    How reasonable are State's forecasts of the demand for 
visas and passports?
    Mr. Edson, how confident is State in your forecast? I just 
want to sort of move along. Both.
    Start with you first.
    Mr. Ford. We have looked at the methodology that the State 
Department is using to forecast both the NIV and the passports. 
We are much more confident of the NIV forecasts, because the 
primary basis for their forecasts are the outstanding border 
crossing cards that are already in existence. So they have a 
solid foundation of knowing how many cards are already there, 
and then the rest of the projection is based on how many new 
cards they believe they will need. So we are very comfortable 
with the projection process for the NIV cards.
    We are less comfortable with the passport estimates, 
because there is no historical basis for the new passport 
requirement, and so therefore there is not a very good track 
record or foundation for basing the forecast.
    But the reason we're a little less concerned about that is 
because, when you tie that to the workload requirements for 
more staff and for more facilities, the number of passports 
that are likely to potentially be needed is much, much smaller 
than the NIV. We're talking in the neighborhood of tens of 
thousands versus an increase of at least a million and a half.
    So we're not super-comfortable with the passport forecasts, 
but we're not as concerned about them, whether--how accurate 
they vis-a-vis the overall workload, because the total numbers 
are not likely to be anywhere near the same as the border 
crossing cards.
    Mr. Towns. OK.
    Mr. Edson.
    Mr. Edson. We agree with GAO. We're not nearly as 
comfortable with the passport projections.
    There are a large number of American citizens living on the 
Mexican side of the border, who have never had to get a 
passport before to travel into the United States. Because of 
that, we don't have any confidence that we know the number of 
American citizens that are there. If they never asked us for a 
passport or asked us for service, they have never come into 
contact with us.
    We have done our best to estimate, but that estimation, as 
Mr. Ford mentioned, has a pretty high fudge factor. We are 
submitting, based on the best available data to us and surveys 
in the border community, about 40,000 passport applicants. We 
are planning for about 60,000 passport applicants. We currently 
have the capacity for that higher number which, as you can see, 
is a 50 percent increase over our original estimate.
    On the border crossing card site, though, there were 5 
million cards, give or take, issued during the period when the 
first border crossing cards were issued in the late 1990's, and 
some percentage of that 5 million will be the surge workload as 
it comes in for renewal. So we have a very definite upper end 
to the estimate with that estimate.
    Mr. Towns. We understand that these offsite data centers 
will not be marked on the outside as being affiliated with the 
United States. We understand that, applicants will require 
appointments to enter the facilities. However, we all want to 
make sure that these facilities are as safe as possible. It 
will not be difficult for our enemies to find out where these 
facilities are, and they have attacked our offices abroad in 
the past.
    Mr. Edson, how will these offices be kept safe? Will it be 
the State Department's responsibility? Whose responsibility 
will this be to protect them?
    Mr. Edson. Thank you for that question.
    We are talking to the contractor, and we are certainly 
looking at this as one of the issues as we move forward with a 
request for a proposal. We have--we believe that the facilities 
are best protected at this point by anonymity, even though, as 
you point out, they will be well known as part of the visa 
process. That is just to be expected.
    People will have appointments, they will need to go through 
them to get the fingerprints collected before their interview, 
but it's an issue that we're talking to our own computer people 
about as we move forward on the contract.
    Mr. Towns. Let me ask you, Ms. Manaher--and I would like to 
get your views on it also, Mr. Ford.
    Ms. Manaher. I don't really think the Department has an 
opinion on the offsite application data collection.
    Mr. Towns. I'm sorry?
    Ms. Manaher. On the offsite data collectionsites. I would 
have to take that back as a cue; I am not prepared to answer 
that, sir.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. OK, Mr. Ford.
    Mr. Ford. Although we are not including that in our current 
study, we have done some work in the past regarding our safety 
and security of U.S. employees outside of the embassies.
    But the Department, as a general rule, wants all of its 
employees to work in safe and secure buildings. That is why 
we're building all the new embassies overseas, to meet the new 
security standards.
    With regard to private contractors, I'm not sure what the 
Department's policy on that is in terms of what types of 
security should be provided. I would think, however--since this 
is a pilot that could have global implications, it seems to me 
that the Department really does need to take a hard look at the 
security, particularly if they're going to operate these 
facilities in locations where we have hostile environments.
    So I think it's something that should be included as part 
of the assessment that the Department makes in terms of the 
determining whether this is a useful thing for the Department 
to expand globally.
    Mr. Towns. At this time, I yield to the ranking member.
    Mr. Bilbray. Thank you.
    I just have to say one thing. If we really think that the 
bad guys aren't going to know where these facilities are, they 
will know about it as soon as the wiring starts going in. I 
just hope we're not betting on that.
    But the optical strip is being maintained on the green 
cards. It's on the present BCC cards. Why isn't it being 
included in the new card?
    Mr. Edson. Thank you for the opportunity to address that 
particular issue.
    When the competition was let, a wide number of cards were 
proposed for testing. We were able to select from a wide 
variety of security features that provide multiple or 
overlapping layers of security, both overt, covert and then the 
forensic. In that context, a number of things were proposed 
that we believe provide a secure document.
    Our experience with the optical stripe was not uniformly 
positive and there were some issues with the stripe over time. 
But I think, more importantly, this was 10 years later, and we 
were looking at implementing a new card with a new format as a 
standard. It's a standard practice for us in terms of document 
security that each generation is altered to improve its 
security.
    Mr. Bilbray. Why doesn't the new green card have them?
    Ms. Manaher. I think it's important to note that the green 
card is currently going to have a CBP requirement, which is 
vicinity RFID made for Customs and Border Protection. I would 
have to take that back to the Department and CIS for the 
requirement----
    Mr. Bilbray. Is there a reason not to have both?
    Ms. Manaher. For Customs and Border Protection it is no 
longer an operational requirement for us for the optical memory 
stripe. We found it----
    Mr. Bilbray. The question is, is there a reason not to have 
both?
    Mr. Edson. On our card, when we looked at it, we believe 
that the security features we have are adequate, are more than 
adequate, that this is actually a superior product in every 
way, and the old style card was easy to wash.
    The optical stripe does peel over time. It scratches and it 
is difficult to read. It requires a proprietary reader that 
doesn't always function as advertised and was never deployed 
very widely.
    As we looked at other options, we thought that the options 
we selected for use in the border crossing card provided us 
with a better package of security features.
    Mr. Bilbray. Has the optical card ever been falsified or 
used--has it ever been used to produce a false document?
    Mr. Edson. We have seen counterfeit optical stripes. I 
don't believe that they're readable. So that----
    Mr. Bilbray. So the problem is not that they're forgeable, 
the problem is that they may get destroyed somewhere down the 
line? Or is it that the readers are proprietary, and you don't 
want to have to pay the proprietary fee?
    Mr. Edson. Well, no optical stripe was presented for 
testing as part of this contracting process, which I guess is 
core to this particular issue. But there were--again, from our 
perspective, the security features that were selected provided 
such deep, overlapping security to the card that it wasn't 
necessary to look at the optical stripe in addition to those 
features.
    Mr. Bilbray. That technology was presented, though, for a 
pass card wasn't it?
    Mr. Edson. For the passport card?
    Mr. Bilbray. In the pass card, the optical.
    Mr. Edson. The passport, it was not presented for testing 
by any vendor for the passport card, no.
    Mr. Bilbray. Let's get back to this secondary/primary 
check.
    For the last few months that I have been going through 
international airports, when I have been coming in from south 
of the border or outside, it looked like every window had a 
finger reader on it, even the ones we were using as U.S. 
citizens.
    They weren't using it for U.S. citizens, but was my 
observation correct that----
    Ms. Manaher. Yes, sir. It's correct.
    Mr. Bilbray. The booths are all manned?
    Ms. Manaher. In the air and sea environment, it is in all 
the primary lanes.
    Mr. Bilbray. May I make a suggestion, as a frequent user, 
as an American, I would like to be able to have the option to 
go ahead and go use the reader system somehow like the Clear 
Card is used. Because, if you go through international airports 
now, the system is working so good for foreign travelers that 
the backup for Americans is huge, because we're still using the 
old system for Americans.
    Mr. Ford.
    Mr. Ford. The last time I went through, I experienced what 
you're talking about.
    Mr. Bilbray. Exactly, and I'm just saying that I know we 
don't want to mandate this on U.S. citizens now, for political 
reasons, but at least we ought to provide the option so when an 
American is sitting there and seeing the foreign-born zipping 
through--let me say, the praise of the foreign travelers to our 
system has been great. They love it. Instead of the 30 
questions and all the other stuff about where your aunt is from 
or whatever, you go in, you get a positive and you move. And I 
think it's a great example that technology done appropriately 
can really free up the individual and avoid problems. And I 
just want to make that plug that there ought to be a way for 
us, like the Clear Card, to be able to access the system and 
use it. Because the card, the readers are there, not being used 
on the U.S. side.
    But that aside, let me take you to task on that. The ports 
of entry, the land ports of entry, you're proposing not to 
provide that--only those that are taking the secondary. And the 
issue is that it will take too long to use biometric 
confirmation?
    Ms. Manaher. No, sir. I just don't think the technology is 
there to meet our operational requirements.
    We're still in a land border environment. We have an 
antiquated infrastructure. We have weather issues. We have a 
family of eight. It's just----
    Mr. Bilbray. I understand that. Even with the family of 
eight--and again as somebody who is going through again and 
again--we have the great technology now that while they're 
waiting in a line in a car, we're reading their license plate, 
aren't we? Long before they pull in, we have the technology, 
because of the waiting process, to be able to process people in 
a lot of different ways.
    I will be very frank with you. I really don't think you're 
being aggressive enough at looking at how to use more 
technology on the land base and I think it really can help the 
process. I think it can speed up the process.
    The trouble is changing the operational mind-set from what 
it has been since 1950 to what it can be now. And we're still 
stuck in the same border shack that I saw when I was sneaking 
down south to catch a couple of beers on Revolucion; and that 
mind-set is still there.
    And believe me, the people checking there are my friends 
and neighbors. They have been my friends and neighbors my 
entire life, so I know the people that are in operation there.
    But I really think that there is more you can do with 
technology. And secondary, as a backup, you still are asking an 
officer to make a judgment call at the primary port of entry 
like you have since 1950. The difference is, you may speed up 
the secondary check, but you're still having a slower process, 
because I don't think you're utilizing technology.
    And I have seen the benefits at our airports. I really ask 
you to keep an open mind in applying it to that land base.
    Thank you, Mr. Chairman.
    Mr. Towns. Thank you. Thank you very much, and let me just 
run through this very quickly.
    Ms. Manaher, there have been some who have said that the 
new design for the passport card and the border crossing card 
is not as safe as the older design. I'm very glad that you're 
here today, because there are people on both sides of this that 
I respect, you know. So maybe you can sort of straighten it out 
today and tell us in terms of whether it is or isn't, because 
we all want the documents to be as secure as possible. In your 
opinion, is the new design for the passport card and the border 
crossing card more secure than the design it is replacing?
    Ms. Manaher. Yes, in my opinion it is, sir. And remember, 
our primary officers have a very limited amount of time to 
make, you know, really quick judgments about the admissibility 
of folks entering the United States. The key to us is not so 
much the actual document itself, but rather the ability to go 
back to an issuing source and pull that information. So even if 
you have an imposter before you, you can look and see, well, 
wait a minute here, that is not the same guy who applied for 
this a few years ago. That issuing source, that ability to go 
out and pull back, takes away from even--makes the document 
through system connectivity a far greater security feature than 
an actual physical security feature for us.
    Mr. Towns. Mr. Edson, this is my last question. Background 
checks for the employees of the data centers, do they receive a 
full check or only a name check? Could you tell me? Background 
check for the----
    Mr. Edson. I'll have to take the question. I'm not familiar 
with that part of the contract.
    Mr. Towns. Because information----
    Mr. Bilbray. Anybody familiar with it? That is a big 
question. That is a huge question.
    Mr. Edson. They have access--we'll answer that question.
    Mr. Bilbray. It might affect the efficiency of the system 
if al Qaeda is issuing these cards.
    Mr. Edson. These--we are talking only about--I believe we 
are only talking about the employees who are checking to ensure 
that the applicant completed their on-line application 
completely, all the fields were completed and then took the 
fingerprints. The fingerprints and the data go through a series 
of security screens before they are admitted into our--on the 
other side of the firewall into our systems. And then when the 
applicant appears for the interview, their fingerprints are 
checked on a random basis. Our system generates a random 
request for the officer at the time of interview to reprint the 
applicant. But at that point the check has already been done, 
so the officer is just verifying that the prints that were 
collected offsite match the prints on the person in front of 
them at the time of interview. But that is why we believe this 
is perhaps not as important as it might be, but we will 
definitely answer the question.
    Mr. Bilbray. Mr. Edson, how many Mexican applicants are 
going to be physically interviewed? Are all the foreign 
nationals being physically reinterviewed as we reissue these 
cards?
    Mr. Edson. Today every applicant is being physically 
reinterviewed.
    Mr. Bilbray. Where?
    Mr. Edson. In the consulate sections in Mexico, not in the 
offsite data center. The law, the Intelligence Reform and 
Terrorism Prevention Act, in December 2004, provided the 
Department of State with the authority to waive interviews in a 
very limited number of cases for applicants applying for 
renewal of a visa in the same category within 12 months of 
expiration. We intend to use that capability if there are no 
other fraud indicators, but all these people who are renewing 
with the 10 prints collected offsite--the prints will be 
matched against the two index prints collected at the time 
their original border crossing card was processed. There still 
has been a biometric confirmation through U.S. controlled data 
before we would ever entertain the idea of----
    Mr. Bilbray. From the old file?
    Mr. Edson. Correct, correct.
    Mr. Bilbray. Sorry, Mr. Chairman.
    Mr. Edson. Their biographic data would have to match. If 
there is a change in their name or something, we'll call them 
in.
    Mr. Towns. Let me--why wouldn't the card be more secure if 
it included the optical stripe in addition to the other 
features? Wouldn't the card be more secure?
    Mr. Edson. The card--I can't answer the question simply yes 
or no. The card as put together has a number of security 
features that security experts, including the forensic document 
lab at ICE, the Secret Service, the International Reproduction 
Resource Center that is run by a consortium of central banks, 
including our own Federal Reserve Board, Sandia Labs--I mean, 
number of experts in documents tested these documents as part 
of the competition and we believe that we have a more secure 
document now than we had with the older card.
    Mr. Towns. Let me go at it another way. Well, why wouldn't 
you include more security features rather than fewer, 
especially if they don't conflict with each other?
    Mr. Edson. At a certain point--I'm not positive. I don't 
know if we could have fit the optical stripe on this card. At a 
certain point, though, the number of features, the nature of 
those features, there are unprecedented--the Kinegram, for 
example, the hologram that is on the face of this card--if I 
could perhaps, I could share copies of the card to look at. The 
Kinegram is a mixture of transparent metallic features that is 
not used anywhere else in the industry. We've integrated into 
several layers of the card material. It is not actually pock 
stamped on top as is usually the case. So that it overlaps with 
the photo and with the biographic data. The photo and the 
biographic data are laser engraved. So once again they go 
through several layers of the card material.
    This card has been produced in such a way that altering any 
of that actually destroys the card. Yes, it could be peeled 
apart, but then there would be nothing left. Any card--I showed 
you the BCCs we have now can be peeled apart, but then there 
would be nothing left of the card, because of the way it is put 
together. And we believe we have the best product for the need 
right now in this card.
    Mr. Bilbray. You don't believe that somebody with a hot 
knife might be able to have the technique to remove that 
physically?
    Mr. Edson. They couldn't. The card would be useless if they 
did. I mean, they could split the card into polycarbonate 
layers perhaps, but there would be nothing left to do anything 
with.
    Mr. Towns. Well, let me thank all of you for your 
testimony, of course, and I still feel we have a lot of work to 
do. I really, really do. I think that, you know, we are a long 
ways from being there, and, of course, we have to continue to 
do that. And we are going to be here. We're not going to go 
away. I just need to just let you know that, of course, so you 
can continue to work with us. And we want to be helpful where 
we can as well.
    So thank you so much for your testimony.
    Mr. Bilbray. Mr. Chairman, I want to thank the panelists, 
too. And let me just say, look, we are going to be working on 
this, implementing it in the next 6 months, but we're going to 
be implementing it over the next couple of years. So it is 
going to transcend administrations. And I would just ask that 
you recognize that we have major concerns and we want to work 
with you to make this happen. And I just have to tell you, the 
concern we have is about why not use some of this. If it costs 
a little more--just understand this as being like the Kevlar 
vests that are protecting the neighborhoods instead of 
soldiers. You don't want to have to answer to your right, 
doggone it, if we just put a little more in, one more layer, 
that could have saved the community's life and then we could 
have stopped a breach.
    So this thing is really scary. Sometimes I don't know how 
to emphasize how important the work you are doing. So that is 
why, please, both our offices are available to work with you, 
to dialog with you and ask you some tough questions. We want to 
make you uncomfortable so that you do the best job you're 
capable of doing so you can be--make sure that your 
grandchildren are safe.
    Thank you.
    Mr. Towns. Thank you very much. Thank you. Panel No. II, 
please come forward. Before you sit, just continue to stand and 
we'll swear you in. Then we won't have to get back up. Waiting 
on Mr. Alsbrooks.
    [Witnesses sworn.]
    Mr. Towns. Let me begin with you, Mr. Fuller. Mr. Aaron 
Fuller, the President of the Computer Science Corporation 
Enforcement Security and Intelligence Division. Welcome. We 
begin with you.

STATEMENTS OF AARON FULLER, PRESIDENT, COMPUTER SCIENCES CORP., 
  INC., ENFORCEMENT SECURITY AND INTELLIGENCE DIVISION; RICK 
   PATRICK, SENIOR VICE PRESIDENT FOR FEDERAL PROGRAMS, L-1 
  IDENTITY SOLUTIONS, INC.; AND WILLIAM T. ALSBROOKS, FORMER 
GROUP VICE PRESIDENT, INFORMATION SYSTEMS CREDENTIAL TECHNOLOGY 
                    GROUP, GENERAL DYNAMICS

                   STATEMENT OF AARON FULLER

    Mr. Fuller. Thank you. Mr. Chairman, Ranking Member 
Bilbray, and members of the subcommittee. Thank you for your 
invitation to testify at today's hearing. I am Aaron Fuller, 
President of CSC's Enforcement Security and Intelligence 
Division. I'd like to say just a few words about CSC followed 
by an overview of the contractual efforts performed by my 
organization that may be of interest to you today.
    CSC is a leading global consulting systems integration and 
management services company with approximately 90,000 employees 
headquartered in Falls Church, Virginia, with reported revenues 
of $16.5 billion for the 12 months ended March 28, 2008. I'm 
President of CSC's Enforcement Security and Intelligence 
Division, and my clients include Department of State and other 
U.S. Government agencies.
    We have two contracts with the Department of State in 
support of the Bureau of Consular Affairs. The initial CSC 
contracts for user paid visa services were competitively 
awarded in 2000 by GSA for the Department of State, and from 
the inception of these initial contracts, CSC has delivered 
visa information services and appointment scheduling support to 
40 U.S. missions around the world.
    CSC's work in Nuevo Laredo and Monterey is a 1-year effort 
under one of the contracts with a period of performance from 
January 2008 to January 2009. Our Applicant Service Centers 
[ASCs], in these two locations in Mexico are paid for by the 
applicants for nonimmigrant visas, not with congressionally 
appropriated funds. A proof of concept facility was opened in 
Nuevo Laredo on March 24, 2008 to service up to 65,000 
applicants per year as required by our contract, and a pilot 
facility was opened in Monterey on April 18, 2008 to service up 
to 250,000 applicants per year, also as required by the 
contract.
    I'd now like to quickly step through the typical applicant 
experience in those two facilities. A nonimmigrant visa 
applicant calls our visa information service phone number or 
accesses our self-service Web site to receive information about 
the visa process and to schedule appointments both at an ASC 
and at the local U.S. consulate. An applicant enters their 
application information on an electronic form available through 
a Department of State Web site.
    On arrival at the ASC, there are multiple layers of 
security to ensure that each applicant has a scheduled 
appointment and the necessary visa application documents with 
them. A CSC employee now begins the data collection process. 
They retrieve the electronic record from the Department of 
State using the remote data collection software provided by 
State. Next the CSC employee checks the applicant's passport 
number and name to see that they match what the applicant 
entered online at the State Department Web site. The CSC 
employee scans the applicant's Mexican passport, collects a 
digital fingerprint from all 10 fingers and takes a digital 
photograph of the applicant. This digitized information is now 
in the applicant's electronic record in the State Department 
provided software. At that point, the State Department provided 
software automatically transmits the updated electronic 
information via the Internet to the State Department.
    The last step in the ASC process is for the applicant to 
provide information to CSC's courier service for delivery of 
the applicant's approved visa if a visa is approved by the U.S. 
consulate. The applicant has now completed the ASC experience 
in CSC's service center. The applicant's next step is to attend 
their consulate appointment.
    Through June 18, 2008, the Nuevo Laredo facility has 
averaged 50 applicants per day. The Monterey facility has 
averaged 400 applicants per day. All of our in-country staff 
members have undergone a Department of State name check by the 
local U.S. consulate. Employees of the ASCs are under the 
supervision of an American citizen who holds a security 
clearance issued by the U.S. Government.
    CSC is pleased to be engaged with the Department of State 
in efforts to improve the efficiency of visa processing. We 
fully support the efforts of Congress and State and other 
Federal agencies to oversee, plan and deliver these services.
    Thank you, Mr. Chairman and committee members. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Fuller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Thank you very much, Mr. Fuller.
    Mr. Patrick. Push the button. Yes. Good, thank you.

                   STATEMENT OF RICK PATRICK

    Mr. Patrick. Good afternoon, Chairman Towns, Ranking Member 
Bilbray, and other distinguished members of the subcommittee. 
I'm Rick Patrick, Senior Vice President of Federal Programs for 
the Secure Credentialing Division of L-1. I appreciate the 
opportunity to appear before you to participate in today's 
important discussions. I plan on using my time to touch on a 
few highlights from my written testimony.
    L-1 Identity Solutions is a portfolio of companies 
organized along four primary business areas, secure 
credentialing, biometrics, enrollment services and intelligence 
consulting. The Secure Credentialing Division focuses on 
creating secure identity documents such as passports and 
driver's licenses. We have designed over 2,000 card types and 
integrated well over 50 security features in these ID cards. We 
produce more than 35 million ID documents a year.
    Most recently we have been awarded the passport card 
contract after a full and open competition run by the 
Department of State. In fact, we have already delivered the 
first 125,000 production cards to them. In addition, our 
contract calls for the production and design of the next 
generation border crossing card using the same production 
platform as the passport card.
    To be clear, this contract is separate from the one that 
CSC was awarded for visa processing. Both the passport card and 
the border crossing card are aimed not only at enhancing 
security, but also at facilitating commerce and expediting 
passenger processing.
    As set forth by the requirements of the Department of State 
and DHS, the two cards contain RFID technology to meet the 
operational requirements of CBP at land ports of entry.
    The cards also incorporate a number of tactile and visual 
security features that prevent tampering and make it easy for 
an inspector to quickly ascertain its validity. Among these 
features are laser engraved photo and text, rainbow printing, 
color shifting ink, laser engraved tactile features, micro 
printing and an embedded optical variable device. In addition, 
there are many classified features we cannot describe in this 
open forum. Taken together, these features make it very 
difficult to counterfeit the card. As a result, these 
credentials will be among the most secure in the world.
    With respect to privacy, the RFID technology embedded in 
the card does not carry any personal or biometric information. 
The chip contains only a number which is a pointer to a record 
in the government data base. Using this number, the traveler's 
information is retrieved from the government's data base via a 
secure connection so that the CBP officer has an opportunity to 
review it before the traveler arrives at the window. The use of 
the pointer number protects personal privacy, because no 
information is stored on the card and the data base record can 
only be accessed when the card is presented. If the card is 
lost or stolen, a CBP officer would be able to determine 
quickly that an imposter was using it either by comparing the 
photograph pulled from the government data base or as in the 
case of the border crossing card, by performing a biometric 
match between the traveler's fingerprint and the one stored on 
the government's data base at secondary inspection.
    Finally, as an additional privacy measure, an RFID 
shielding sleeve has been provided to U.S. citizens. The work 
to produce the credentials is being done here in the United 
States in a secured facility in Mount Pleasant, TN. The team L-
1 assembled for this project is composed of well-established 
American companies. The individuals involved in the production 
process are vetted through the criminal background checks. The 
security materials we use to create the documents are not 
readily available in the marketplace but only to government 
agencies and vetted security printers.
    As I conclude my testimony today, I would like to reiterate 
that we at L-1 take great pride in the work that we do in our 
partnership with the U.S. Government and we look forward to 
continuing to be a part of this critical discussion and once 
again appreciate the opportunity to appear today. I'd be happy 
to answer any questions.
    [The prepared statement of Mr. Patrick follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Thank you very much.
    Mr. Alsbrooks.

               STATEMENT OF WILLIAM T. ALSBROOKS

    Mr. Alsbrooks. Chairman Towns, Ranking Member Bilbray, and 
other distinguished members of the subcommittee, I thank you 
for the invitation to appear before you today.
    A quick background. I retired from General Dynamics 
Information Technology in the fall of 2007, and today I run my 
own consulting firm called Great Bear Solutions Group. In the 
interest of full disclosure, I have served as a paid consultant 
to both OVD Kinegram and Lasercard. For almost 20 years, I was 
the Vice President in charge of the Credential Technology 
Group. Since 1995, my group deployed over 40 million secure ID 
cards of all types containing the most sophisticated security 
features known. DHS has stated that RFID infrastructure will be 
deployed to only 39 POEs. BCC cards will be used for 
identification where there are other places where there are no 
readers.
    Given these facts, it is important to understand the 
following: these cards must provide for reliable, face value 
visual authentication. Features that require special readers 
are of little or no value to a Tier 1 inspector. If a secure ID 
card cannot be visually authenticated with an unaided eye, it 
is poorly conceived and easily compromised.
    Unfortunately, the BCC card that the State Department 
intends to deploy will effectively lower the bar on ID card 
security for this generation of cards, which I believe poses a 
grave threat to our national security. The most durable, secure 
and tamper resistant card available for the American public is 
the card that has been developed for the permanent resident 
green card. This advanced technology card incorporates all of 
the security features specified for the border crossing and 
passport cards, including the RFID chip.
    However, it is significantly more reliable on face-value 
inspection because of the inclusion of the latest state-of-the-
art laser engraved optical stripe. It contains high resolution 
images, which function at a forensic level yet offer 
unsurpassed visual authentication when used only with an 
unaided eye.
    The new card specifications for the BCC and passport cards 
do include overt, covert and forensic features; however, they 
rely heavily on security features most commonly associated with 
currency. Most of these features require the use of specialized 
tools to validate. All of these features are regularly 
simulated in counterfeit currency worldwide every day.
    It is the nature of the secure document business and in the 
best interest of the American public that the best of breed 
proprietary single source technology be utilized in secure ID 
cards. Most of the technology that has been specified for the 
new card is single source. The OVD Kinegram was chosen by the 
State Department and separately sole sourced. The artwork is 
done on proprietary software. The color changing inks are 
single source. If scrambled indicia is used, it is a 
proprietary technology. Any type of traceable particulate or 
security threat will be proprietary and require proprietary 
readers.
    The optical stripe is a proprietary single source feature. 
I believe that it offers a solid and unique security benefit 
and should be utilized. The Department of State has bet the 
whole farm on the visual security of the laser engraved 
personalization and the OVD Kinegram. Laser engraving on 
polycarbonate for personalization is not new technology. It is 
not unique, nor is it difficult to duplicate. It is not 
impossible to alter. And tactile features are not difficult to 
create.
    I believe that laser should be used for personalization of 
these cards; however, it is not a feature that is going to stop 
a counterfeiter. Laser engravers are readily available, 
affordable for low volume counterfeiters and can be purchased 
on eBay.
    OVD Kinegram produces an extraordinary optical variable 
device. It is a unique combination featuring both metalized and 
transparent materials. It has horizontal and vertical movement, 
color defractive light shifting and multiple images. My group 
has used Kinegrams since 2002 and I recommend that Kinegram be 
used on these cards. It is the best of the breed in the world.
    But all that glitters is not gold, and sophisticated 
holograms, both authentic and counterfeit, are now widely 
manufactured and readily available worldwide. Technology to 
produce holographic devices is not closely held. Unfortunately, 
it is a feature that can be simulated and will not stop an 
accomplished counterfeiter.
    It is important to note that the Kinegram feature is not 
unique. It is not unique to an individual. They are visually 
all alike. Once the OVD has been compromised, a simulation can 
be mass produced.
    Also of great concern to me is the fact that the Kinegram 
can be removed from a real card intact and reapplied to a 
counterfeit. I have one here that has been removed intact, this 
original Kinegram--and it can be applied to a new card. I would 
be glad to show this to you. Even though the card plans to 
embed the OVD under the top layer of the card, it can be 
readily separated using heat and a knife or any of several 
solvents, which can be purchased at local drug or hardware 
stores. Again, any accomplished counterfeiter will have no 
problem doing this once he gets his hand on an authentic card.
    Today's state-of-the-art laser printing is actually being 
done utilizing an optical stripe. This technology does 
constitute a huge obstacle to counterfeiters. The new border 
crossing cards should continue to include an optical stripe. 
Only then can the State Department legitimately claim to be 
issuing the most durable, secure and tamper resistant cards 
available to the American public.
    There are two distinct components to the overt features on 
the new cards, common images like portraits and statues that 
can be easily seen with a naked eye yet retain their integrity 
under 400 power magnification. Each optical stripe is now 
available in a 24-millimeter width, is uniquely personalized. 
These features have been designed in close consultation with a 
forensic document lab.
    Mr. Towns. Mr. Alsbrooks, I hate to----
    Mr. Alsbrooks. I beg your indulgence.
    Mr. Towns. When we get back, I'm going to ask you some 
questions. The only thing about it, we have to go vote.
    Mr. Bilbray. But we'll be back specifically----
    Mr. Towns. We will suspend until 4:15. We will come back. 
OK? We have to go vote. They'll criticize you, you know.
    [Recess.]
    Mr. Towns. Let's continue. Let me begin with you, Mr. 
Fuller. Now, we are trying to get a better sense of why this 
contract was created the way that it was. Using a letter 
contract for this deal seems very unusual. A regular contract 
would have specified a sum that CSC would collect for its 
services, guaranteeing a certain amount of income. I don't mean 
to lecture you on how to conduct business, but wouldn't signing 
a regular contract in which State specified how much it would 
pay have been a safer business practice for CSC?
    Mr. Fuller. Thank you for the question, Mr. Chairman. CSC 
responds to a wide range of types of government contracts, has 
a wide portfolio of types of contracts that we accept and this 
falls into that as a normal practice.
    Mr. Towns. As a normal practice?
    Mr. Fuller. A wide range of government contracts and this 
is one of several kinds that CSC responds to.
    Mr. Towns. OK. Applicants must pay a $26 fee for the data 
collection at the offsite centers. Who sets that fee?
    Mr. Fuller. The fee was set by State Department.
    Mr. Towns. What is the profit margin on the data 
collection? Do you know?
    Mr. Fuller. These are pilot programs and we don't know how 
that will turn out yet. We've only been operating for 2 months 
and don't know the results.
    Mr. Towns. We asked Mr. Edson about this on the first 
panel. L-1 announced last year that it hired Frank Moss, former 
Deputy Assistant Secretary for Passport Services for State 
Department as a consultant. Federal law prohibits former 
Federal employees from any acts, which gives them the 
appearance of making unfair use of prior government employment 
and affiliations. Mr. Moss' former position with the State 
Department put him in a position where he could have influence 
over the awarding of this contract. Do you agree that this 
could at least be perceived as a conflict of interest?
    Mr. Fuller. Are you asking me, Mr. Chairman? I'm sorry.
    Mr. Towns. Actually I'm going to ask you and Mr. Patrick. 
I'm going to ask both of you.
    Mr. Fuller. I'm familiar with any of the contracts that----
    Mr. Towns. OK. All right.
    Mr. Patrick. We publicly announced that we had hired Frank 
Moss has a consultant. As you probably know, we are a worldwide 
company interested in electronic passports around the world. 
Frank Moss as the ex-director was a very----
    Mr. Towns. Is your mic on? Is your mic on? Push the button.
    Mr. Patrick. It is on.
    Mr. Towns. Yeah. Good. Yeah, thank you.
    Mr. Patrick. I'm sorry.
    Frank was very experienced in the rollout of the U.S. e-
passport book program. That was one of the key reasons we hired 
Frank. As the ex-director, he was a resource that followed all 
the vetting and the rules and regulations as laid down by the 
State Department's exit or revolving door policy. I'm not sure 
of the name of it.
    Mr. Towns. You know, the press release announcing the hire 
says that Mr. Moss will leverage his background to develop 
relationships with Federal agencies, driving identity-related 
programs. What do you mean by that?
    Mr. Patrick. I didn't write the press release, but I 
could----
    Mr. Towns. But you're familiar with it, aren't you?
    Mr. Patrick. I read it before I came today. The other 
agencies that have credentialing programs going on and, to list 
a few, the DOD CAC card, HSPD-12, the TWIC card, passport card, 
enhanced driver's license. He had significant experience. So I 
believe there is a variety of Federal agencies that would look 
at him as somewhat of an expert.
    Mr. Towns. Yeah. What role did he play in this contract? Do 
you know?
    Mr. Patrick. To my knowledge, he was an advisory, helps us 
understand a little bit about State Department processes, but 
that was the extent of it.
    Mr. Towns. As we said during the first panel, we are 
concerned about the security at these offsite centers. Even if 
they are guarded and unmarked offices affiliated with the U.S. 
Government, they will always be potential targets for attack, 
whether they are here or abroad. If the pilot is successful, 
these offices may be established in other countries as well. 
Will CSC be responsible for the security of the offsite data 
centers?
    Mr. Fuller. Thank you, Mr. Chairman, for the question. CSC 
has layered security procedures that--and activities at both of 
these pilot locations. I would prefer to describe those in a 
closed communication. I would rather not describe what our 
security processes and procedures are in open session?
    Mr. Towns. I accept that. I accept that. Again, I 
understand why you would not want to.
    Mr. Fuller. Thank you.
    Mr. Bilbray. For the record, Mr. Chairman, I think we need 
to discuss about having a closed session, specifically on these 
items.
    Mr. Towns. Right. Without objection, we will do it. So 
ordered.
    Mr. Fuller, we are happy to see that there is a plan in 
place to reduce delays in border crossing cards, applications. 
Even with the huge expected increase in demand, we do have some 
questions about the offsite data centers. Who will be training 
the employees at these facilities?
    Mr. Fuller. The training is conducted by CSC.
    Mr. Towns. How would their training compare to the training 
that the consulate employees receive and will this matter?
    Mr. Fuller. I don't know the details of that comparison. I 
will get that answer for you, sir.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. All right. I appreciate that.
    Mr. Patrick, I'm glad that you were able to testify on the 
security features of the new passport cards and border crossing 
cards today. The security of these documents is a high priority 
for this subcommittee. There is a lot at stake with the work 
your company has done on this project. However, some critics 
have said that this design is not as secure as the one it is 
replacing. What do you say to that?
    Mr. Patrick. As a solutions provider for the Federal 
Government, we go directly to the spec as written by, in this 
case DOS and DHS and we would follow the spec to the letter.
    Mr. Towns. Well, what--let me put it this way, then: what 
in particular makes this new design more secure than the one it 
is replacing? Let me try you that way.
    Mr. Patrick. Sure. I believe one of the things that I refer 
to in that circumstance is the RFID and the ability to point to 
a data base to pull up an actual record. My understanding is, 
today, there is not the ability, or very seldom is there the 
ability to go back to a data base to confirm the identity of 
the user. This would allow the border crossing card holder to 
be vetted via the RFID pointer number to the data base.
    Mr. Towns. Mr. Alsbrooks, let me get your opinion on this 
as well. What advantage did the older design have over this 
design?
    Mr. Alsbrooks. Over the current one?
    Mr. Towns. Yes.
    Mr. Alsbrooks. First of all, the optical stripe did contain 
the biometric and biographic information. It was written to 
that card 10 times. I have one of the old cards here. The 
images were etched into the stripe. It could be used for visual 
authentication, but the card can also be used for retrieval of 
data. It has two biometric templates usually of the forefingers 
and it has one full blown WSQ fingerprint. The weakness of the 
old card, in my opinion, was the dye sublimation. It was 
printed in color and it was a D2T2 process that, as we talked 
about earlier, with solvents you can remove that and reprint 
it. What you couldn't do was alter the optical stripe. And that 
remains to be true. So from the side of the optical stripe, 
this is far more secure than the current design. The addition 
of the laser engraved personalization, you know, completes the 
protection of the card.
    Mr. Chairman, when we interrupted for the vote a while ago, 
I had a little bit left on my testimony. So at your 
convenience, I would love to finish that.
    Mr. Towns. I'd be delighted to yield and allow you to 
continue at this moment.
    Mr. Alsbrooks. OK. Thank you very much. At the time we had 
broke, we had just talked about the fact that we had 
successfully removed a real Kinegram from the card intact in a 
way that it could be reapplied to another card. And then we 
started--this--that by the way was done with a 60 watt bulb and 
a kitchen knife.
    Today's state-of-the-art laser printing is actually being 
done utilizing an optical stripe. This technology does 
constitute a huge obstacle to counterfeiters. The new border 
crossing cards should continue to include an optical stripe. 
Only then can the State Department legitimately claim that they 
are using the most durable, secure and tamper resistant cards 
available to the American public. Two distinct components of 
the overt features of the card, common images like portraits or 
statues that can be easily discerned from the unaided eye yet 
retain their detail and integrity at about 400 power 
magnification--the optical stripe is now available in a 24-
millimeter width and is uniquely personalized with a larger and 
much clearer digital photograph and with the biographical data 
of the card holder. The image is prominently burned into the 
optical media with a laser into the core of the card. It can be 
destroyed, but it can never be altered.
    These features have been designed in close consultation 
with forensic and intelligence officers from DHS' forensic 
document lab and represent an enormous challenge to any level 
of counterfeiter, including those State sponsored. The border 
crossing card today contains a fingerprint biometric stored in 
the optical stripe, which can be validated in a matter of 
seconds from the card off line. The specification for the new 
BCC, however, does not include a fingerprint biometric and will 
instead rely on visual comparison to the digital photograph. 
Visual comparison of a photo retrieved from the data base by an 
inspector does not constitute the functional equivalent of a 
fingerprint biometric verification.
    Without question, the optical stripe is the most 
demonstrably secure overt feature available for secure ID 
cards. The optical stripe can easily be added to the new cards 
specified for BCC and pass. If it were, inspectors would then 
be able to rely on the visual authentication of the document. 
The digital photo and biographical features on the face of the 
card would be rendered relevant and unaltered by simply 
referring to the optical media on the reverse side. It is 
called a reliable flash pass.
    Chairman Towns, Ranking Member Bilbray, let me close with a 
word of concern. If State and DHS continue on their current 
path, they will issue pass and BCC cards that are so insecure 
that they will become the terrorist document of choice. They 
will not leave home without it.
    Thank you for your time. I will be pleased to answer any 
questions.
    [The prepared statement of Mr. Alsbrooks follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Towns. Thank you very much for your testimony and I 
understand that--let me just ask this and then I'm going to 
yield to you after this, ranking member. I understand that this 
optical stripe technology has been on the current border 
crossing cards for the last 10 years. And you're recommending 
that it remain on the new cards?
    Mr. Alsbrooks. Yes, sir.
    Mr. Towns. Why?
    Mr. Alsbrooks. Well, first of all, it gives unparalleled 
visual authentication. That optical stripe can be destroyed, 
but it can never be altered. The images and the data are burned 
into the card with a 40 milliwatt semiconductor laser by 
burning pits and the media is actually physically deformed. So 
you can't go erase it and rewrite it. By combining that with 
other security features--I'm all in favor of layering security 
features so that one verifies the other. So if on the face of 
the card--and I believe you have some samples up there of this. 
On the face of the card, if I use the laser engraving and I 
burn that into the polycarbonate into the core of the card and 
then I put a Kinegram on top of that, which I then burn that 
into that until I link it so I can see if it has been moved and 
then--I can then reference the front to the back of the card. 
And if the photos are the same, then it hasn't been tampered 
with.
    Now, the other thing I would do is I would put that 
Kinegram on top of the card instead of putting it under the 
layer. Any time you put it under the layer like this, you can 
separate it and reuse it and they will never get away from 
that. But if you put that on top of the card, I know it is an 
abrasive issue and it is a wear issue and I know why they did 
this. If you put it on the top of the card and somebody tampers 
with it, you can detect it.
    Mr. Towns. Thank you very much and let me yield to the 
ranking member.
    Mr. Bilbray. Why don't we followup on the wear and tear 
problem, the breakdown of this technology. That is a legitimate 
concern?
    Mr. Alsbrooks. Yes, sir.
    Mr. Bilbray. Mr. Patrick, would you like to have a chance 
to respond?
    Mr. Patrick. The card we provided was asked for by State 
spec to be a 10-year card. We stand behind that 10-year 
guarantee.
    Mr. Bilbray. So that is the determining factor? Was just 
the fact that if somebody--if this is abused, it won't last the 
10 years?
    Mr. Patrick. Our understanding from the State Department 
was they were concerned with people putting it in their shoe, 
ashtrays, that they wouldn't take care of it. They had a 5-year 
option and a 10-year option. They chose the 10-year option and 
we stand behind that. And that is how our contract is.
    Mr. Bilbray. If there was a 5-year option, would the strips 
still not qualify under your----
    Mr. Patrick. I'm sorry. Could you repeat the question?
    Mr. Bilbray. If it was a 5-year option, would that change 
your perception of the use of the stripe?
    Mr. Patrick. No.
    Mr. Bilbray. Mostly because you can't guarantee it against 
abuse?
    Mr. Patrick. Mostly.
    Mr. Bilbray. The chip is guaranteed--you're comfortable the 
chip is guaranteed for 10 years?
    Mr. Patrick. The entire card, the full construction, the 
chip, the antenna, the polycarbonate, if it does not perform, 
we stand behind it.
    Mr. Bilbray. And there is no concern of the chip at all for 
10 years?
    Mr. Patrick. The test that was run by the State Department 
at Sandia labs, plus our independent testing, tells us that we 
are on solid ground with the 10-year guarantee.
    Mr. Bilbray. OK. You understand my concern or our concern 
with the fact that maybe the specs gave precedence to how long 
the card was guaranteed and rather than how secure the card 
being first priority. I mean, to equate it again to the 
bulletproof vest, the best bulletproof vests have--expire much 
quicker than older bulletproof vests do. But you were going to 
the specs and that is a 10-year spec?
    Mr. Patrick. Yes.
    Mr. Bilbray. How about the replacement rate on the existing 
BCCs?
    Mr. Alsbrooks. Well, as I said earlier, I retired from 
General Dynamic, but I was responsible for that contract for 
over 10 years. We never were asked to replace a single card.
    Mr. Bilbray. And how long was that card?
    Mr. Alsbrooks. It was guaranteed for 10 years. Certainly 
there were cards that were abused, but we never found a card 
that had four corners that we could not read. And I have spent 
a lot of time on the border just south of San Diego and if the 
card had four corners, it would read and we always said that if 
it was broken we would replace it, and we were never asked to 
replace a single card.
    Mr. Bilbray. Just for your record, the incorporated city of 
San Diego goes all the way to the border.
    Mr. Alsbrooks. Yes, sir.
    Mr. Bilbray. San Ysidro is a community of San Diego.
    Mr. Alsbrooks. Yes, sir.
    Mr. Bilbray. We are still arguing over that occupation, but 
that is another issue.
    Thank you, Mr. Chairman.
    Mr. Towns. Thank you. Let me thank all of you for your 
testimony. We really appreciate your time and, of course, we 
value the information that you have shared with us as well. So 
I would like to at this time, if there is no further question, 
to----
    Mr. Bilbray. Let me just say--if I can close just with a 
statement that was given to us from Guantanamo, and that is Abu 
Zubaydah is actually quoted in one of those interrogations as 
the al Qaeda's document specialist. And he stated--and I like 
the way he uses the English language. It is the way I learned 
it, too, but we'll talk about ``we start work in fake 
passports. I was famous. I was me, myself, a big market for 
fake passports. `And this is really the telling statement.' I 
can send anybody to any place. It is easy. So this is my 
work.''
    Let us just hope, you know, we don't hear testimony like 
that from the next group of al Qaedas that we capture.
    Thank you very much, Mr. Chairman.
    Mr. Towns. Thank you very much and, without objection, on 
that note the committee stands adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
